   ~S1.IlVlCE.
                      DEPARTMENT OF HEALTH & HUMAN SERVICES
                                                    OFFICE OF INSPECTOR GENERAL

                                                                                                                Offce of Audit Servce, Region III
 ....~

('g~-"'"
  :l~~~alJ                                                                                                      Public Leger Building, Suite 316
                                                                                                                150 S. Independence Mall West
                                                                                                                Philadelphia. PA 19106-3499


                                                                                   JUN 2 4 2009


                 Report Number: A-03-07-00030

                 Ms. Elizabeth D. Hills
                 Corporate Compliance Officer
                 Lancaster General Hospital

                 555 Nort Duke Street
                 Lancaster, Pennsylvania 17604-3555

                 Dear Ms. Hills:

                 Enclosed is the U.S. Deparment of Health and Human Services (HHS), Office of Inspector
                 General (OIG), final report entitled "Payments for Epogen Administered at Lancaster General
                 Hospital Dialysis Center, Lancaster, Pennsylvania." We wil forward a copy of                             ths report to the

                 HHS action official noted on the following page for review and any action deemed necessary.

                 The HHS action official wil make final determnation as to actions taken on all matters reported.
                 We request that you respond to ths official within 30 days from the date of this letter. Your
                 response should present any comments or additional information that you believe may have a
                 bearng on the final determination.

                 Pursuant to the Freedom of Information Act, 5 U.S.c. § 552, OIG reports generally are made
                 available to the public to the extent that information in the report is not subject to exemptions in
                 the Act. Accordingly, this report wil be posted on the Internet at htto://oig.hhs.gov.

                 If you have any questions or comments about ths report, please do not hesitate to call me at
                 (215) 861-4470 or though email at Stephen.Virbitsky(goig.hhs.gov, or contact Bernard Siegel,
                 Audit Manager, at (215) 861-4484 or though email at Bernard.Siegel(goig.hhs.gov. Please refer
                 to report number A-03-07-00030 in all correspondence.

                                                                                          Sincerely,



                                                                                     Lstephen v~
                                                                                   () - Regional Inspector General
                                                                                         for Audit Services


                 Enclosure
Page 2 - Ms. Elizabeth D. Hills


Direct Reply to HHS Action Offcial:

Janet Samen
Director, Division of Chronic Care Management
Center for Medicare Management (CCPG/DCCM)
Centers for Medicare & Medicaid Services
Mail Stop C5-05-07
7500 Security Boulevard
Baltimore, Maryland 21244-1850
J anet.Samen (gcms.hhs.gov
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





      PAYMENTS FOR 

  EPOGEN ADMINISTERED AT

LANCASTER GENERAL HOSPITAL 

     DIALYSIS CENTER,

 LANCASTER, PENNSYLVANIA 





                    Daniel R. Levinson

                     Inspector General 


                        June 2009 

                      A-03-07-00030

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people 65 years of age and older, people under 65 with certain disabilities,
and people of all ages with end-stage renal disease (permanent kidney failure requiring a kidney
transplant or dialysis). The Centers for Medicare & Medicaid Services administers the program.

Section 1881(a) of the Act establishes the benefits provided by Medicare Parts A and B for
individuals who have been determined to have end-stage renal disease as provided in
section 226A of the Act. Benefits include injections of Epogen, usually administered during
dialysis. Individuals diagnosed with end-stage renal disease often suffer from anemia and
Epogen lessens the effects of anemia for those patients. Epogen doses are generally adjusted by
a physician based on a review of the patient’s medical record. For facilities that use a
preestablished dosing algorithm, a nurse may also adjust the Epogen dose to maintain an optimal
hematocrit (red blood cell) level.

As a basis for payment, section 1833(e) of the Act states: “No payment shall be made to any
provider of services or other person under this part unless there has been furnished such
information as may be necessary in order to determine the amounts due . . . .” Federal
regulations (42 CFR § 424.5(a)(6)) require providers to furnish sufficient information, upon
request, to determine whether payment is due and, if so, the amount to be paid.

Lancaster General Hospital Dialysis Center (the Dialysis Center) is an outpatient department of
Lancaster General Hospital located in Lancaster, Pennsylvania. The Dialysis Center provides
treatment for end-stage renal disease using 30 renal dialysis stations. It received payments
totaling $9,233,388 for Medicare service provided from January 1, 2004, through June 30, 2006.
Of this amount, $1,858,753 was for the administration of Epogen. During our audit period, the
Dialysis Center used a dosing algorithm to adjust patient Epogen doses.

OBJECTIVE

Our objective was to determine whether the Dialysis Center administered, billed, and was paid
for units of Epogen consistent with the units that were ordered by attending physicians, as
reflected in the Dialysis Center’s medical records.

SUMMARY OF FINDINGS

For 97 of the 100 sampled claims, the Dialysis Center administered, billed, and was paid for
units of Epogen that were consistent with the units ordered by attending physicians, as reflected
in the Dialysis Center’s medical records. However, the Dialysis Center did not meet the
Medicare payment requirements for some dates of service for three claims. In those instances,
we identified discrepancies in the Dialysis Center’s medical and billing records between the units
of Epogen ordered by the patients’ attending physicians and the units administered to the
patients, billed by the Dialysis Center, and paid by Medicare.



                                                i
   •	 For two claims with errors totaling $32, the Dialysis Center’s medical and billing records
      reflected that more units of Epogen were administered to patients, billed by the Dialysis
      Center, and paid by Medicare than were ordered by the patients’ attending physicians,
      resulting in overpayments.

   •	 For one claim, the Dialysis Center’s medical and billing records reflected discrepancies
      between the units of Epogen ordered by the patient’s attending physician and
      administered to the patient, billed by the Dialysis Center, and paid by Medicare. For
      purposes of this report, we considered this error procedural because it did not result in an
      overpayment.

The errors related to these three claims occurred because administering nurses did not follow the
Dialysis Center Manual for administering medication and updating medication orders into the
Dialysis Center System. When physicians’ orders are not followed, quality of care may be
affected. Also, the Dialysis Center did not always bill for the quantity of Epogen administered.

RECOMMENDATION

We recommend that the Dialysis Center ensure that it follows policies and procedures that are
consistent with Federal requirements in order to avoid discrepancies between the units of Epogen
ordered by patients’ physicians and the units administered to the patient, billed by the Dialysis
Center, and paid by Medicare.

LANCASTER GENERAL HOSPITAL COMMENTS

In comments on our draft report (see Appendix), Lancaster General Hospital agreed with our
findings and stated that it has instituted several changes in procedures including a verification
process to ensure that policies are followed and medications are properly recorded and billed.




                                                 ii
                                                 TABLE OF CONTENTS 


                                                                                                                                   Page

INTRODUCTION........................................................................................................................1 


          BACKGROUND ...............................................................................................................1         

              Medicare ................................................................................................................1      

              Epogen Therapy for End-Stage Renal Disease Patients ........................................1 

              Medicare Requirements and Payments for End-Stage Renal Disease Services ....2 

              Lancaster General Hospital Dialysis Center ..........................................................2 

              Lancaster General Hospital Dialysis Center Policies and Procedures...................2 


          OBJECTIVE, SCOPE, AND METHODOLOGY .............................................................3 

               Objective ................................................................................................................3    

               Scope......................................................................................................................3   

               Methodology ..........................................................................................................3        


FINDINGS AND RECOMMENDATION.................................................................................4 


          FEDERAL REQUIREMENTS..........................................................................................4                     

               Medical Recordkeeping .........................................................................................4               

               Medicare Payment Procedures...............................................................................5                    


          CLAIMS FOR EPOGEN NOT CONSISTENT WITH PHYSICIANS’ ORDERS ..........5 

               More Units of Epogen Administered, Billed, and Paid, Than Ordered.................5 


          CLAIMS WITH A PROCEDURAL ERROR THAT RESULTED IN A 

            DISCREPANCY...........................................................................................................6 


          DIALYSIS CENTER POLICIES AND PROCEDURES 

            NOT ALWAYS FOLLOWED ......................................................................................6 


          RECOMMENDATION .....................................................................................................7               


          LANCASTER GENERAL HOSPITAL COMMENTS ....................................................7 


APPENDIX

          LANCASTER GENERAL HOSPITAL COMMENTS




                                                                   iii
                                              INTRODUCTION                                                            


BACKGROUND

Medicare

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people 65 years of age and older, people under 65 with certain disabilities,
and people of all ages with end-stage renal disease (permanent kidney failure requiring a kidney
transplant or dialysis). The Centers for Medicare & Medicaid Services (CMS) administers the
program.

Epogen Therapy for End-Stage Renal Disease Patients

Section 1881(a) of the Act establishes the benefits provided by Medicare Parts A and B for
individuals who have been determined to have end-stage renal disease as provided in
section 226A of the Act. Benefits include injections of Epogen, usually administered during
dialysis. 1

Individuals diagnosed with end-stage renal disease often suffer from anemia, and Epogen lessens
the effects of anemia for those patients. The initial dose of Epogen is based on an individual’s
weight and hematocrit level, a measure of the percentage of red blood cells in the blood. The
target hematocrit level for dialysis patients receiving Epogen therapy is 30 to 36 percent, which
represents a hemoglobin level of 10 to 12 grams per deciliter. 2 For dialysis patients, hematocrit
levels above 36 percent can lead to increased risk of cardiovascular complications and death. 3

Epogen doses are generally adjusted by a physician based on a review of the patient’s medical
record. Some facilities may also use a preestablished dosing algorithm. The algorithm is a
formula established by the facility Medical Director and ordered by the physician. It requires the
nurse on duty to gather information from the patient’s medical record and determine the correct
dose of Epogen to maintain an optimal hematocrit level. Based on the algorithm, a nurse may
decrease, increase, or maintain the Epogen dose or temporarily suspend the dose for one or more
treatments. Lancaster General Hospital Dialysis Center (the Dialysis Center) used an algorithm
to determine the dose of Epogen to administer to its patients.




1
 Epogen is an “erythropoiesis-stimulating agent,” manufactured by Amgen, which stimulates the production of red
blood cells.
2
    CMS “Medicare Claims Processing Manual,” Pub. No. 100-04, chapter 8, section 60.4.
3
 After our audit period, the Food and Drug Administration issued a black box label warning for Epogen that
“erythropoiesis-stimulating agents (ESAs) increased the risk for death and for serious cardiovascular events when
administered to target a hemoglobin of greater than 12 [grams per deciliter] . . . .” Food and Drug Administration,
“Epogen Label,” March 9, 2007. Available online at http://www.fda.gov/cder/foi/label/2007/103234s5122lbl.pdf.
Accessed on April 23, 2009.


                                                          1

Medicare Requirements and Payments for End-Stage Renal Disease Services

As a basis for payment, section 1833(e) of the Act states: “No payment shall be made to any
provider of services or other person under this part unless there has been furnished such
information as may be necessary in order to determine the amounts due . . . .” Federal
regulations (42 CFR § 424.5(a)(6)) require providers to furnish sufficient information, upon
request, to determine whether payment is due and, if so, the amount to be paid.

CMS’s “Medicare Claims Processing Manual,” Pub. No. 100-04, chapter 8, section 10.1,
specifies that renal dialysis facilities receive a composite rate for outpatient maintenance dialysis
services. The composite rate is a comprehensive payment for dialysis services except for bad
debts, physicians’ patient care services, separately billable laboratory services, and separately
billable drugs, including Epogen. CMS contracts with fiscal intermediaries 4 to process and pay
Medicare Part B claims for Epogen administered by renal dialysis facilities. Generally, for each
patient, providers submit one bill per month, which includes the charges for up to 14 dialysis
treatments, separately billable laboratory services, and separately billable drugs, including
Epogen. Providers submitted claims that identified the total units of Epogen administered to
each patient during the billing period, not the dose of Epogen administered during each
treatment. Payments for Epogen are subject to Medicare Part B deductible and coinsurance
requirements.

Lancaster General Hospital Dialysis Center

The Dialysis Center, located in Lancaster, Pennsylvania, is an outpatient department of Lancaster
General Hospital (the Hospital). The Dialysis Center provides treatment for end-stage renal
disease at 30 renal dialysis stations. It received payments totaling $9,233,388 for Medicare
services provided from January 1, 2004, through June 30, 2006. Of this amount, $1,858,753 was
for the administration of Epogen.

Lancaster General Hospital Dialysis Center Policies and Procedures

To assist in its efforts to comply with requirements under Federal and State law, the Dialysis
Center maintained an automated medical record system (Dialysis Center System). The Hospital
established a medical record policy and documentation procedures in its “Designated Record
Set/Legal Medical Record.” Specific policies relating to the documentation of physician orders
and the administration of medications are included in the Hospital’s “Department of Pharmacy
Policy and Procedure Manual” (Dialysis Center Manual). 5




4
 During the audit period, the Medicare Part B claims we reviewed were processed and paid by fiscal intermediaries.
The Medicare Modernization Act of 2003, P.L. No. 108-173, which became effective on October 1, 2005, amended
certain sections of the Act, including section 1842(a), to require that Medicare administrative contractors replace
carriers and fiscal intermediaries by October 2011.
5
    The Dialysis Center, an outpatient department of the Hospital, is subject to the Hospital’s policies and procedures.


                                                             2

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Dialysis Center administered, billed, and was paid
for units of Epogen consistent with the units that were ordered by attending physicians, as
reflected in the Dialysis Center’s medical records.

Scope

Our review covered 4,433 monthly claims totaling $1,858,753 for Epogen administered by the
Dialysis Center from January 1, 2004, through June 30, 2006.

We limited our review of the Dialysis Center’s internal controls to the administration of and
billing for Epogen, including medical recordkeeping. The objective of our review did not require
an understanding or assessment of the Dialysis Center’s complete internal control structure. We
did not determine the medical necessity of any items or services, including Epogen.

We performed fieldwork at the Dialysis Center’s compliance office in Lancaster, Pennsylvania.

Methodology

To accomplish our objective, we:

   •	 reviewed applicable Federal laws, regulations, and guidance related to the treatment of
      end-stage renal disease, renal dialysis facilities, and the administration of Epogen;

   •	 reviewed applicable State laws, regulations, and guidance related to the Hospital’s 

      policies and procedures; 


   •	 reviewed the Hospital’s policies and procedures, including its medical recordkeeping and
      billing practices;

   •	 interviewed Hospital and Dialysis Center officials;

   •	 identified and assessed the adequacy of internal controls related to the administration of
      and billing for Epogen; and

   •	 identified a sampling frame of all claims in the CMS claims history file with Epogen
      administered at the Dialysis Center from January 1, 2004, through June 30, 2006, and:

        o	 selected from the sampling frame a simple random sample of 100 claims for Epogen
           totaling $35,911 and

        o	 for each sampled claim, compared the units of Epogen ordered by the Dialysis Center
           attending physician, administered to the patient, billed by the Dialysis Center, and


                                                3

            paid by Medicare to determine whether such units, as reflected in the Dialysis
            Center’s medical and billing records, were consistent with each other.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATION

For 97 of the 100 sampled claims, the Dialysis Center administered, billed, and was paid for
units of Epogen that were consistent with the units ordered by attending physicians, as reflected
in the Dialysis Center’s medical records. However, the Dialysis Center did not meet the
Medicare payment requirements for some dates of service for three claims. In those instances,
we identified discrepancies in the Dialysis Center’s medical and billing records between the units
of Epogen ordered by the patients’ attending physicians and the units administered to the
patients, billed by the Dialysis Center, and paid by Medicare.

    •	 For two claims with errors totaling $32, the Dialysis Center’s medical and billing records
       reflected that more units of Epogen were administered to patients, billed by the Dialysis
       Center, and paid by Medicare than were ordered by the patients’ attending physicians,
       resulting in overpayments.

    •	 For one claim, the Dialysis Center’s medical and billing records reflected discrepancies
       between the units of Epogen ordered by the patient’s attending physician and
       administered to the patient, billed by the Dialysis Center, and paid by Medicare. For
       purposes of this report, we considered this error procedural because it did not result in an
       overpayment.

The errors related to these three claims occurred because administering nurses did not follow the
Dialysis Center Manual for administering medication and updating medication orders into the
Dialysis Center System. When physicians’ orders are not followed, quality of care may be
affected. Also, the Dialysis Center did not always bill for the quantity of Epogen administered.

FEDERAL REQUIREMENTS

Medical Recordkeeping

As a condition for coverage during our audit period, renal dialysis facilities were required to
centralize all clinical information in each patient’s medical record in accordance with accepted
professional standards and practices (42 CFR § 405.2139). 6 The medical records were required
to be “completely and accurately documented, readily available, and systematically organized to
facilitate the compilation and retrieval of information.” Subsection (a) of 42 CFR § 405.2139
6
 This condition for coverage was amended effective October 14, 2008. The amended condition for coverage is now
at 42 CFR § 494.170.


                                                      4

further stated that medical records must contain certain general categories of information,
including “diagnostic and therapeutic orders; observations, and progress notes; reports of
treatments and clinical findings . . . .”

Medicare Payment Procedures

As a basis for payment, section 1833(e) of the Act states that “No payment shall be made to any
provider of services or other person under this part unless there has been furnished such
information as may be necessary in order to determine the amounts due such provider or other
person under this part for the period with respect to which the amounts are being paid or for any
prior period.”

Federal regulations (42 CFR § 424.5(a)(6)) require providers to furnish sufficient information,
upon request, to determine whether payment is due and, if so, the amount to be paid.

CLAIMS FOR EPOGEN NOT CONSISTENT WITH PHYSICIANS’ ORDERS

For each sample claim, we compared the Dialysis Center’s medical and billing records with
respect to the units of Epogen (1) ordered by the patients’ attending physicians, (2) administered
by the nurse to the patient, (3) billed by the Dialysis Center, and (4) paid by Medicare. For two
claims with questioned amounts totaling $32, there were discrepancies in the Dialysis Center’s
medical and billing records between the units of Epogen ordered by the attending physician and
the units of Epogen administered, billed by the Dialysis Center, and paid by Medicare. The
Dialysis Center administered, billed, and was paid for higher doses than ordered by the attending
physician, as documented in the Dialysis Center’s medical and billing records.

More Units of Epogen Administered, Billed, and Paid, Than Ordered

For two claims covering two patients, the Dialysis Center’s medical records contained attending
physicians’ orders that reduced the units of Epogen prescribed, but the nurse administered more
Epogen than was ordered.

    •	 For one claim, the attending physician’s order decreased the units of Epogen prescribed
       for one patient from 3,000 to 2,000 units; however, the nurse administered both doses,
       totaling 5,000 units, for that date of service. 7 As a result, the patient received, the
       Dialysis Center billed, and Medicare paid for 3,000 more units of Epogen, totaling $24,
       than was ordered.

    •	 For one claim, the attending physician’s order decreased the units prescribed for one
       patient from 2,000 to 1,000 units. Both the previous and the new order required the
       administration of the prescribed Epogen on the first Thursday of the month. On
       September 1, 2005, the first Thursday, a nurse administered 1,000 units of Epogen.
       However, on Saturday, September 10, the nurse administered an additional 1,000 units of

7
 The “Medication Summary” on the treatment screen showed the same date to end the previous order and begin the
new order, possibly resulting in the administration of both doses. We noted that the start date of the current dose is
always the same as the ending date of the previous dose.


                                                           5

       Epogen to the patient. As a result, the patient received, the Dialysis Center billed, and
       Medicare paid for 1,000 units more units of Epogen, totaling $8, than was ordered.

CLAIM WITH A PROCEDURAL ERROR THAT RESULTED IN A DISCREPANCY

For one claim, the Dialysis Center’s medical and billing records reflected a discrepancy between
the units of Epogen ordered by the patient’s attending physician and the units administered to the
patient, billed by the Dialysis Center, and paid by Medicare for 13 dates of service during the
month reviewed that did not result in an overpayment and is, for purposes of this report,
considered a procedural error. The Dialysis Center’s medical record showed that a physician
ordered and the Dialysis Center administered a total of 90,000 units of Epogen during 13 dialysis
treatments for the month of September 2004. However, the Dialysis Center billed and Medicare
paid for only 60,000 units of Epogen. The Dialysis Center could not explain why the full
quantity administered during September 2004 was not billed to Medicare.

DIALYSIS CENTER POLICIES AND PROCEDURES NOT ALWAYS FOLLOWED

In Pennsylvania, the Professional Nursing Law establishes standards for nursing schools and the
conduct of nursing programs and defines the practice of medical nursing to include executing
medical regimens as prescribed by a licensed physician. Pennsylvania’s Administrative Code
(49 Pa. Code Chapter 21) further regulates the profession of nursing, including the
administration of prescription medications.

To assist in the Dialysis Center’s efforts to comply with requirements under Federal law and
States’ respective Nurse Practice Acts, the Dialysis Center maintained the Dialysis Center
System. The Dialysis Center Manual identified policies and procedures that required that
medication dose changes were recorded in the Dialysis Center System and subsequently entered
by a nurse into the “All Medications Summary” of the Dialysis Center System. Nurses refer to
the “All Medications Summary” to determine the dose of each medication, including Epogen, to
administer.

The Hospital’s “Rules Governing the Safe Use of Drugs and Biologicals,” (Policy 2:6, rev. # 4)
required a physician’s order for the administration of medications. Nurses administering
medications must verify the medication to be administered with a physician’s order, positively
identify the patient prior to administering the medication, and document the medication
administration in the patient’s medical record.

Although the Dialysis Center had controls in place as specified in the Dialysis Center Manual,
based on our review, the Dialysis Center personnel did not always follow all of these procedures.
Attending physician orders changing the dose of Epogen were not always followed by the
administering nurses and were not always updated in the Dialysis Center System. When the
attending physician changes the units of Epogen to administer, nurses should administer the
quantity ordered for that day and not administer previously ordered units of Epogen. When
attending physicians’ orders are not followed, quality of care may be affected.

Also, the Dialysis Center did not always bill for the units of Epogen administered.



                                                6

RECOMMENDATION

We recommend that the Dialysis Center ensure that it follows policies and procedures that are
consistent with Federal requirements in order to avoid discrepancies between the units of Epogen
ordered by patients’ physicians and the units administered to the patient, billed by the Dialysis
Center, and paid by Medicare.

LANCASTER GENERAL HOSPITAL COMMENTS

In comments on our draft report, Lancaster General Hospital agreed with our findings and stated
that it has instituted several changes in procedures including a verification process to ensure that
policies are followed and medications are properly recorded and billed. Lancaster General
Hospital’s comments are included in the Appendix.




                                                 7

APPENDIX

                                                                                                     APPENDIX




                         Jl
Lancaster General Hospital ,..
           Lancaster General Health
                                                                          555 N. Duke Street
                                                                          Lancaster, PA 17604
DELNERED V1A ENCRYPTED EMAD..

June 19.2009

Mr. Bernard Siegel
Audit Manager
Office of Inspector" General
Office of Audit Services
Public Ledger Building. Suite 316
150 S. Independence Mall West
Philadelphia, PA 19106-3499

Dear Mr. Siegel:

This letter is Lancaster General Hospital's (LGH's) response to the Officc of Inspector General's (DIG's) Office
of Audit Services (GAS) draft report entitled "'Payments for Epogen Administered at Lancaster General Hospital
Dialysis Center, Lancaster, Pennsylvania."

We have reviewed the draft report and agree with the DIG's findings. Since the time the three errors were made
(2004 - 2006), the LGH Dialysis Center has instituted several changes in procedures including a verification
process to ensure that policies are followed and medications are properly recorded and billed. Specifically;

    •   The same nurse that dispenses a medication also administers the m<..><!ication. A second nurse verifies
        that the correct medication was administered and documented.
    •   A fonnal hand off procedure was developed and implemented to standardize report from one shift of
        nurses to the next. Included in the shift change is a review of the medications.

LGH is committed to conducting its business in compliance with Medicare rules. As such, LGH's
comprehensive Compliance Program complies with the DIG's Compliance Program Guidance for Hospitals.
Integral to the LGB Compliance Program is an internal auditing system that that monitors, identifies, and
corrects billing errors. When billing errors are identified, corrected claims are submitted and overpayments
refunded to Medicare and the beneficiary, as appropriate.

We appreciate the opportunity to review the draft report. If you have any questions regarding this response,
please contact me at 717·544-5866


?Ie',"'"
~~~.CHC'CPC
Compliance Officer
Lancaster General Health
